    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL



    REVIEW OF GRANTEE’S
COMPLIANCE WITH PROVISIONS OF
 TECHNOLOGY INITIATIVE GRANT




 Grantee: Kentucky Legal Aid

        Recipient No. 618036
           Report No. AU05-04

              March 2005
             www.oig.lsc.gov
                               TABLE OF CONTENTS


INTRODUCTION ..........................................................................................1


BACKGROUND............................................................................................1


OBJECTIVES, SCOPE, and METHODOLOGY ...........................................1


RESULTS OF AUDIT ...................................................................................2


   Grantee Expenditures for Technology Initiative Project ...........................2

   Grantee Deliverables for the Technology Initiative Project.......................3

   Impact of Technology Initiative Project.....................................................4


SUMMARY OF GRANTEE’S RESPONSE...................................................5




                                               i
                                 INTRODUCTION

       The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted an audit of Kentucky Legal Aid’s (grantee) compliance with the
provisions of LSC’s Technology Initiative Grant No. 51 (grant) for $101,600.



                                 BACKGROUND

      Legal Aid of Kentucky (grantee) is a nonprofit corporation organized for
the purpose of providing legal assistance in noncriminal proceedings or other
matters to persons financially unable to afford legal assistance in western and
south central Kentucky. The grantee is headquartered in Bowling Green,
Kentucky and maintains additional offices in Madisonville, Owensboro, and
Paducah, Kentucky. LSC funding for 2004 was $1.151 million.

       The purpose of the grant was to develop a wide area network to allow
grantee personnel to share and access data throughout each office in the
program area. The costs associated with this project were to be funded by the
LSC grant and program contributions. In May 2000, the grantee submitted its
application for a $445,645 technology initiative project of which $175,000 was
requested from LSC. In September 2000, LSC awarded a technology initiative
grant for $101,600.



                 OBJECTIVES, SCOPE, AND METHODOLOGY

      The focus of the audit was compliance with the provisions of LSC’s
Technical Initiative Grant No. 51 to the grantee. The on-site field work was
performed on June 28 and June 29, 2004.

The specific objectives of the audit were to:

       •   Express an opinion on the costs reported in a grantee prepared cost
           summary.
       •   Determine whether the grantee had substantially completed the grant
           deliverables, and
       •   Determine whether the grantee had complied with the grant
           requirements to measure the impact of the grant.

        The OIG reviewed materials pertaining to the grant including the award
letter; grant terms, conditions, and assurances; acceptance of award document;
payment schedule; requests for payments; and, audited financial statements.
The OIG also discussed issues pertaining to the grantee with LSC officials.



                                         1
       During the on-site audit, the OIG examined a summary of the total costs of
the technology initiative project prepared by the grantee. The summary showed
the costs of the project within six categories and identified the costs funded
through the LSC grant and those funded through program contributions. The
OIG examination of the summary included a review of the supporting
documentation of the costs to determine whether they were allowable,
reasonable, and allocable to the project.

       The OIG reviewed a description of the software, hardware, and technical
services that the grantee was to provide and determined whether they had been
provided. The OIG interviewed grantee officials and made observations of the
operation of the network. The OIG also reviewed documentation related to the
evaluation of the impact of the project.

      The OIG performed the audit in accordance with Government Auditing
Standards established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public
Law 108-7, incorporating by reference Public Law 104-134.



                              RESULTS OF AUDIT

        In our opinion, except for our audit adjustments (see details below), the
grantee’s cost summary presents fairly, in all material respects, the allowable
costs incurred in accordance with the criteria set forth in the grant. Also, the
grantee met the significant deliverables in its grant. However, the grantee did not
fully comply with the grant requirements to measure the impact of the grant.


Grantee Expenditures for Technology Initiative Project

       The following table shows the grantee’s summary of costs incurred by
budgeted line items for the technology initiative project and the results of our
examination of the summary. The OIG identified $31,789 in incorrect charges to
the “LSC grant” portion of the summary as noted below. We are not questioning
these costs because the grantee included in the “program contributions” portion
of the summary a sufficient amount of eligible costs for the project that could
reasonably have been allocated to the LSC grant. Examples included costs of
servers, computers for intake, and cable/telephone lines.




                                        2
                                   GRANTEE COST SUMMARY

                                                Program         Total Project
              Category             LSC Grant    Contributions   Costs


              Personnel                          $583,115        $583,115
              Fringe Benefits                     110,216         110,216
              Equipment              $ 55,784      71,503         127,287
              Band Width               32,400      32,400          64,800
              Software                 11,816       5,971          17,787
              Training                  1,600       2,572           4,172

              Total                 $101,600     $805,777        $907,377

              Audit Adjustments
               Duplicate Costs        (6,089)   Note 1
               Past Period Costs     (25,700)   Note 2


              Adjusted Summary      $ 69,811

Notes

1. Costs for equipment and software totaling $6,089 were double-counted in the
   grantee’s summary. These costs for servers, routers, and associated
   software were charged to the LSC grant and also counted as program
   contributions.

2. Costs of $25,700 were incurred subsequent to the grant performance period.
   The grantee charged three years of costs for personnel, fringe benefits,
   equipment, band width, and software to the LSC grant. The grant period was
   one year and only costs incurred in that year should have been included.

   Although some grant-related records indicate a three year grant period, the
   best evidence of the agreed-upon period indicates the grantee received a one
   year grant. The award letter signed by the grantee’s board chairman and
   executive director had an attachment that indicated the grant period was from
   October 1, 2000 to October 1, 2001. Further, a letter from the grantee to LSC
   ten months after the grant period began stated that the project was completed
   and requested that all of the grant funds be provided.

Grantee Deliverables for the Technology Initiative Project

         The grantee completed the deliverables required by its technology
initiative grant.

       The grant provided funding to implement a wide area network (WAN) to
link computers in the grantee’s multiple offices. Major requirements of the grant


                                          3
included the purchase and installation of equipment for the WAN and of software
to operate an automated case management system. Documentation supported
the purchase and installation of WAN equipment. We observed the operation of
the centralized intake and referral system that utilized the WAN.


Impact of Technology Initiative Project

       The grantee did not comply with grant requirements to have the project
evaluated using the measures specified in the grant. As a result, we were unable
to determine whether the grantee met the project goals and objectives.

         The grant required the grantee to have the Access to Justice Foundation
(AJF), an independent state support organization, perform a formal evaluation of
the project using specific performance measures provided in the grant document.
These specific measures included (i) the percentage increase of extended, non-
extended, and pro-bono services to clients, (ii) extent to which all advocates have
access to all case management data and extent to which the system is used,
(iii) extent to which each staff member has Internet and e-mail access to other
staff members throughout the service area, and (iv) the quality of Power Point
training developed and the number of training events held.

       According to the Executive Director, the AJF evaluators reviewed the
project but did not develop a written report. Subsequent to our on-site visit the
Executive Director provided a July 2004 memorandum from AJF that
summarized the review. The memorandum indicated that the review was
conducted in two phases. The first phase was carried out in May 2002 and
covered the development of the new intake system, hardware and software
modifications and projected outcomes. Neither the memorandum nor our follow-
up requests yielded details about this phase. The second phase was carried out
in October 2002 and covered client and staff satisfaction. The memorandum
included highlights of client and staff survey responses to a questionnaire, which
were generally favorable.

        The memorandum from AJF, however, did not provide information
indicating that the evaluators used the specific measures in the grant to evaluate
the project. Consequently, we were unable to conclude whether accurate data
supported specific project outcomes.        Audited information supporting the
project’s concrete accomplishments could have helped demonstrate the benefits
of this technology initiative grant.

        The grantee did prepare and submit to LSC a one-page report that
described the success of the project but did not address the specific measures in
the grant. Because LSC accepted this report as meeting the grant’s evaluation
requirements, we are not making specific recommendations to the grantee for
this finding.



                                          4
SUMMARY OF GRANTEE’S RESPONSE

       The grantee chose not to provide a written response to the draft audit
report. The Executive Director indicated that he did not disagree with the factual
accuracy of the report. Regarding the OIG conclusion that the performance
period of the grant was one year, the Executive Director believed a case could be
made that the period was longer, however, he did not intend to raise objections
since the OIG conclusion did not result in questioned costs.




                                        5
